C@QCKLE

Legal Briefs

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-843
NEW YORK STATE RIFLE &
PISTOL ASSOCIATION INC., ET AL.,
Petitioners,

Vv.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
INDEPENDENT WOMEN’S LAW CENTER AS AMICUS CURIAE SUPPORTING
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4774 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of July, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska Zz Chk
f RENEE J, GOSS 0 ( } JL (att ,
can My Comm, Exp. September 5, 2023. .

Notary Public / Affiant

      

 

41159
